WebBank
Cuenta de Tarjeta de Crédito Oportun® Visa®
Divulgación e Información sobre precios
Tasas de interés y Cargos por interés

Tasa de porcentaje
Desde 24.90% hasta 29.90%
anual (APR por su sigla
Tu APR variará con el mercado según la Tasa
en inglés) por compras y preferencial.*
Adelantos de efectivo
La fecha de vencimiento es al menos 25 días después
del cierre de cada Ciclo de facturación. No te
cobraremos intereses por las Compras realizadas si
Pago de intereses
pagas la totalidad del saldo hasta la fecha de
vencimiento de cada mes. Comenzaremos a cobrar
intereses sobre los Adelantos de efectivo desde la fecha
de la transacción.
Cargos mínimos por
interés
Consejos sobre Tarjetas
de crédito de la Oficina
para la Protección
Financiera del
Consumidor

Si te cobramos intereses, el cargo no será inferior a
$1.00.
Para obtener más información sobre los factores a
considerar cuando solicitas o utilizas una tarjeta de
crédito, visita el sitio de Internet de la Oficina para
la Protección Financiera del Consumidor
(Consumer Financial Protection Bureau) en
http://www.consumerfinance.gov/learnmore.

Cargos
Cargo anual

$0–$49

Cargos por transacción
Adelanto de efectivo
Transacciones
internacionales
Cargos por
penalizaciones

El monto mayor entre $10 o el 3% del monto de la
transacción
Ninguno

• Pago con mora

Hasta $35.00

• Pago rechazado

Hasta $35.00

*a partir del 11/01/2020

1

Cómo calculamos tu saldo. Utilizamos un método llamado "saldo promedio diario" (que incluye las transacciones nuevas).
Para obtener más información, consulta la sección "Cargos por interés" del Acuerdo.
Derechos de facturación. En la sección "Tus derechos de facturación" de este Acuerdo, encontrarás información sobre tus
derechos para disputar transacciones y cómo ejercer esos derechos.
Tasa preferencial. Las APR variables dependen de la Tasa preferencial. La APR por Compras y Adelantos de efectivo puede
variar y se determinará sumando el 21.65% - 26.65% a la Tasa preferencial más alta de los EE.UU. que figure en la sección
"Money Rates" ("Tasas monetarias") de cualquier edición de The Wall Street Journal publicada el día 25 de cada mes. Si ese día
no se realiza ninguna publicación, entonces se utilizará la Tasa preferencial del siguiente día hábil. Si la Tasa preferencial
cambia, la nueva tasa tendrá efecto a partir de los ciclos de facturación que finalicen el primer día del mes o después el primer
día del mes posterior al mes en el cual cambió la Tasa preferencial. La nueva tasa se aplicará a todos los saldos de la Cuenta. La
APR para todos los saldos es de entre al 21.65% y el 26.65% más el 3.25% a partir del 11/01/2020 actual desde el 24.90% hasta
el 29.90% (tasa periódica diaria correspondiente desde el 0.06822% hasta el 0.08192%). La APR puede aumentar o disminuir
todos los meses si la Tasa preferencial cambia. Si la APR aumenta, pagarás un cargo por interés mayor y podrás pagar un pago
mínimo más elevado. La Tasa preferencial es simplemente un índice y no es la tasa de interés más baja disponible.
ARBITRAJE
Excepto que seas un deudor amparado por la Ley de préstamos para personal militar (tal como se define en la sección 40),
el Acuerdo del titular de la Tarjeta de Crédito Oportun Visa con WebBank contiene una Disposición de arbitraje. Esta
Disposición de arbitraje se incluye en la sección 41. Lee la Disposición de arbitraje con atención. Excepto que nos envíes
el aviso de rechazo que se describe en la Disposición de arbitraje, dicha Disposición de arbitraje se aplicará a ti.
Información importante sobre informes de crédito
Podemos reportar información sobre tu Cuenta a las
agencias de crédito. Los pagos atrasados, impagos u otros
incumplimientos en tu Cuenta pueden reflejarse en tu
informe de crédito.

matrimoniales, redacciones unilaterales u órdenes judiciales que
apliquen a la propiedad marital afectará de manera negativa los
intereses de una institución financiera, excepto que antes de que
se otorgue el crédito, la institución financiera reciba una copia
del convenio, redacción u orden judicial, o tenga conocimiento
efectivo de dicha disposición. Si estás casado, al presentar tu
solicitud para la tarjeta de crédito, confirmas que incurres en esta
obligación con la tarjeta de crédito en beneficio de tu matrimonio
y tu familia. Si la tarjeta de crédito que solicitas se te otorga,
notificarás al banco si tienes un cónyuge que necesite recibir una
notificación de que se te ha extendido el crédito.

Información específica estatal
AVISO PARA LOS RESIDENTES DE CALIFORNIA:
Los solicitantes, después de la aprobación del crédito,
pueden utilizar la cuenta de la tarjeta de crédito hasta su
límite de crédito y serán responsables de los montos
extendidos bajo el plan para cualquier cosolicitante. Si estás
casado, puedes solicitar crédito a tu nombre.

WebBank, Miembro FDIC, es quien otorga todos los créditos y
es propietario de las cuentas.

AVISO PARA LOS RESIDENTES DE NEW YORK Y
VERMONT: WebBank puede obtener tus informes de
crédito en cualquier momento, para cualquier propósito
legal relacionado con la cuenta, o para la solicitud o
requisito de una cuenta, que incluye aunque no de manera
limitativa la revisión, modificación, renovación y cobro en
tu cuenta. Si lo solicitas, se te informará si se ordena dicho
informe. Si lo haces, recibirás el nombre y la dirección de la
agencia de informes sobre clientes que brinda dicho reporte.

WebBank
Acuerdo del titular de la Tarjeta de Crédito Oportun Visa
Sección 1. Acuerdo del titular de la tarjeta de crédito
Este Acuerdo del titular de la Tarjeta de Crédito Oportun con
WebBank (el "acuerdo") se celebra entre tú y WebBank, un
banco asegurado Miembro FDIC y autorizado por Utah con su
oficina central en Salt Lake City, UT, y rige la cuenta de tu tarjeta
de crédito (la "cuenta"). Este Acuerdo está compuesto por dos
partes: La Divulgación e información importantes sobre precios
de WebBank y Oportun, y el Acuerdo del titular de la tarjeta de
WebBank de Oportun. WebBank abrirá una Cuenta y emitirá una
Tarjeta que puede utilizarse en la red de VISA® para
transacciones de Compras y Adelantos de efectivo en comercios,
instituciones financieras y cajeros automáticos que acepten la
Tarjeta. Al utilizar la Tarjeta, aceptas los términos del Acuerdo
con WebBank, que incluyen cualquier cambio, enmienda o
suplemento.

AVISO PARA LOS RESIDENTES DE NEW YORK:
Los residentes de New York pueden comunicarse con el
Departamento de Servicios Financieros del estado de New
York por teléfono o visitar su sitio de Internet para recibir
información sin cargo sobre tasas, cargos y períodos de
gracia comparativos de tarjetas de crédito. Departamento de
Servicios Financieros del estado de New York (New York
State Department of Financial Services): 1-877-226-5697 o
http://www.dfs.ny.gov.

Sección 2. Definiciones.
El significado de los términos en mayúsculas utilizados en el
Acuerdo figuran en el "Glosario" (sección 39 de este Acuerdo).

AVISO PARA LOS RESIDENTES DE OHIO: Las leyes
contra la discriminación en Ohio exigen que las
instituciones crediticias ofrezcan crédito de manera
equitativa a todos los clientes solventes y que las agencias
de informes crediticios mantengan historias de crédito
separadas de las personas a petición. La Comisión de
Derechos Civiles de Ohio (Ohio Civil Rights Commission)
administra estas leyes.

Tal como se utilizan en el presente, "tú" y "tuyo" se refieren a
cada solicitante y cosolicitante aprobado de la Cuenta; cualquier
persona responsable de pagar la Cuenta; cualquier Usuario
autorizado; y cualquier persona responsable de cumplir con este
Acuerdo. "Nosotros", "nos", "nuestro" y "WebBank" hacen
referencia a WebBank.

AVISO PARA LOS RESIDENTES CASADOS DE
WISCONSIN: Ninguna disposición de convenios

2

Sección 3. Documentos de la cuenta.
Los siguientes documentos rigen tu Acuerdo con nosotros:

autorizado de tu Tarjeta y tu Cuenta.
6. Podemos rechazar la autorización de una transacción por
cualquier motivo. Esto puede ocurrir incluso si la transacción no
provocará que superes tu límite de crédito o tu Cuenta no esté en
incumplimiento.
7. No somos responsables de las pérdidas en las que incurras si
no autorizamos una transacción.
8. No somos responsables de las pérdidas en las que incurras si
alguien se niega a aceptar tu Tarjeta por cualquier motivo.
9. No puedes utilizar ni intentar utilizar la Tarjeta para
actividades ilegales. Si lo haces, serás responsable de cualquier
cargo.
10. No somos responsables de las pérdidas ocasionadas cuando
nuestros servicios no estén disponibles debido a razones que
exceden nuestro control.

1. este Acuerdo;
2. todos los Estados de cuenta;
3. cualquier Aviso de privacidad;
4. todas las divulgaciones y materiales que recibas antes o
cuando abres la Cuenta;
5. cualquier otra documentación y divulgación relacionada
con tu Cuenta; y
6. cualquier cambio futuro que realicemos a cualquiera de
los mencionados anteriormente.
Lee todo este material detenidamente y guárdalo para futura
referencia.

Sección 8. Transacciones de la cuenta.
Tú y cualquier Usuario autorizado, si se permite, pueden utilizar
tu Cuenta y Tarjetas para realizar Compras de bienes o servicios
en comercios donde acepten la Tarjeta, y obtener Adelantos de
efectivo en instituciones financieras que participen. Cada
Compra y Adelanto de efectivo reducirá el crédito disponible de
tu límite de crédito hasta que se pague. El saldo total del adelanto
de efectivo tiene un límite que es el monto mayor entre el 30%
de tu límite de crédito o $150. Los Adelantos de efectivo no
pueden exceder 1 transacción por día, según aplique. Te
comprometes a pagarnos al vencimiento el monto total de todas
las Compras y Adelantos de efectivo, como también todos los
intereses y Cargos, y demás costos facturados a tu Cuenta.

Sección 4. Información de la cuenta.
Necesitamos información sobre ti para aprobar y administrar
tu Cuenta. Esto incluye la información requerida en la
solicitud. Acuerdas avisarnos cuando esta información
cambie y responder a nuestras solicitudes de información o
documentos adicionales para verificar cualquier dato.
Podemos restringir o cerrar tu Cuenta si no podemos
verificar tu información, o si no nos la brindas tal como la
solicitamos.
Sección 5. Cómo usamos y compartimos tu información.
Cuando solicitaste una Cuenta, nos otorgaste a nosotros,
Oportun Inc. ("Oportun") y a nuestras/sus afiliadas
información sobre ti que pudimos compartir entre nosotros.
Oportun y sus afiliadas utilizarán la información relacionada
con el programa de crédito y para operaciones como crear y
actualizar sus registros, y ofrecerte beneficios especiales, y
demás productos y servicios. En los Avisos de privacidad de
tu Cuenta encontrarás más información sobre cómo
utilizamos y compartimos tus datos.

Sección 9. Transacciones internacionales.
Si realizas una transacción que se liquida en una moneda que no
sean dólares estadounidenses, la Asociación de la tarjeta (Visa®)
convertirá ese cargo en un monto en dólares estadounidenses.
Esa conversión se realizará a la tasa seleccionada por la
asociación de la tarjeta entre el rango de tasas disponibles en los
mercados mayoristas de moneda para la fecha de procesamiento
que aplique, que puede discrepar con la tasa que recibe la
asociación de la tarjeta o la tasa vigente exigida por el gobierno
para la fecha de procesamiento que aplique. La tasa de
conversión de moneda utilizada en la fecha de procesamiento
puede diferir de la tasa que se hubiese utilizado en la fecha de la
transacción o la fecha en que la transacción se refleja en tu
Cuenta. Acuerdas pagar el monto convertido a la tasa
seleccionada por la asociación de la tarjeta, que incluye cualquier
cargo por la conversión que pueda imponerse por la transacción
internacional.

Sección 6. Límites de crédito.
Cuando abres la Cuenta, te informaremos cuál es tu límite
de crédito. También figurará en tu Estado de cuenta.
Además, podemos referirnos a tu límite de crédito como tu
línea de crédito.
Eres responsable de mantener un registro de tu saldo y tu
crédito disponible. Debes administrar tu Cuenta para que
permanezca por debajo del límite de crédito. Podemos
aceptar transacciones que superen tu límite de crédito, pero
hacerlo no aumentará dicho límite. Eres responsable de
pagar cualquier transacción que realices y supere el límite
de crédito cuando lo dispongamos.

Sección 10. Derecho de garantía.
Esta es una cuenta sin garantía y WebBank no reserva derecho
de garantía alguno sobre tu propiedad inmobiliaria o personal
para garantizar el pago de tu Cuenta.

También podemos aumentar, disminuir, restringir o cancelar
tu límite de crédito en cualquier momento en cumplimiento
con la ley que corresponda. Esto no afectará tu obligación
de pagarnos cualquier saldo y demás montos adeudados bajo
este Acuerdo.

Sección 11. Cuentas conjuntas.
Si esta es una cuenta conjunta, cada uno de ustedes es
responsable individualmente y en conjunto de todos los montos
adeudados. Cada uno es responsable incluso si uno solo utiliza la
Cuenta. Continuarán siendo responsables del saldo total de la
Cuenta, incluso si un tribunal ordena que tu titular de la cuenta
nos pague. El estado de tu Cuenta se informará a la agencias de
crédito con cada uno de sus nombres. Enviaremos un Estado de
cuenta a un solo nombre y dirección, propiedad del titular
principal de la cuenta. La entrega de avisos o Estados de cuenta
a cualquiera de ustedes sirve como entrega a cada uno de ustedes.
Nos basaremos sobre las indicaciones que cualquiera de ustedes
nos brinde. No somos responsables ante ninguno de ustedes por
basarnos sobre dichas indicaciones. Cualquier titular conjunto de

Sección 7. Uso de tu cuenta.
1. Este Acuerdo se aplica, uses o no tu Tarjeta o tu Cuenta.
Continuará aplicando incluso después de que se cierre la
Cuenta, mientras tengas saldo.
2. Tu uso de la Tarjeta constituye la aceptación de este
Acuerdo.
3. Debes firmar la Tarjeta de inmediato al recibirla.
4. Debes devolvernos la Tarjeta o destruirla si así te lo
solicitamos.
5. Debes tomar medidas responsables para evitar el uso no

3

1. nos darás cualquier información sobre la transacción
disputada, si lo solicitamos;
2. no demandarás (o cesarás tu demanda actual) de cualquier
reclamación o reembolso del monto de la transacción por parte
del comercio o cualquier otra persona; y
3. nos ayudarás a obtener el reembolso de otros.

la cuenta puede acceder a la información completa de la
cuenta y puede solicitar y aceptar un aumento de la línea de
crédito para la Cuenta.
Sección 12. Usuarios autorizados (si se permiten).
Si nos solicitas que emitamos una Tarjeta para cualquier
persona que no sea un titular conjunto de la cuenta y
accedemos a hacerlo, dicha persona será un Usuario
autorizado. Podemos requerir cierta información sobre él y
tú deberás informarle que estás compartiendo sus datos con
nosotros. Podemos limitar su uso de tu Tarjeta. Puede tener
acceso a cierta información de tu Cuenta. Tú serás
responsable de su uso de la Cuenta y cualquier persona a
quien permitan utilizar tu Cuenta, incluso si tú no querías o
no accediste a su uso. Podemos reportar información sobre
tu(s) Usuario(s) autorizado(s) a las agencias de informes
sobre clientes. Consulta la sección "Informes de crédito" de
este Acuerdo.

Sección 17. Sin garantías.
No somos responsables de ninguna reclamación que puedas tener
en relación con la Compra de bienes o servicios realizada con tu
Tarjeta más allá de los derechos que se describen en el "Resumen
de Derechos de facturación" de tu Estado de cuenta y este
Acuerdo.
Sección 18. Robo o extravío de Tarjeta.
Si te roban o extravías tu Tarjeta, o si crees que otra persona
puede estar usando tu Tarjeta o tu Cuenta sin tu autorización,
debes comunicarte con nosotros al 833-Oportun de inmediato.
No serás responsable de las transacciones de tu Cuenta que
descubramos que no han sido autorizadas.

Sección 13. Eliminación de un Usuario autorizado.
Si deseas eliminar a un Usuario autorizado de tu Cuenta,
debes comunicarte con el servicio de atención al cliente al
833-Oportun y solicitar la eliminación. También debes
destruir de inmediato todas las Tarjetas en su posesión y
cancelar cualquier arreglo que haya podido configurar en tu
Cuenta. Esa persona podrá utilizar tu Cuenta hasta que nos
hayas notificado que lo eliminarás de tu Cuenta. Durante ese
tiempo, seguirás siendo responsable de todos los montos que
cargue dicha persona a tu Cuenta. Serás responsable incluso
si esos montos no figuran en tu Cuenta hasta un tiempo más
tarde.

Si te reembolsamos las transacciones no autorizadas, nos
ayudarás a investigar, reclamar y obtener el reembolso por parte
del infractor. Tu ayuda incluye brindarnos documentación en la
forma en que la solicitemos.
Sección 19. Cargos por interés.
Utilizamos un método llamado "Saldo diario promedio" (que
incluye las transacciones nuevas) para calcular los Cargos por
interés para cada tipo de transacción en tu cuenta de manera
individual.
1. Primero, por cada día del Ciclo de facturación, comenzamos
con el saldo anterior por Compras y Adelantos de efectivo,
sumamos cualquier cargo nuevo que no esté sujeto a un período
de gracia (que puede incluir Cargos e Intereses), y restamos los
pagos y créditos que se describen en la sección "Cómo aplicamos
tus pagos" de este Acuerdo. El resultado es el saldo diario.
2. Luego agregamos los saldos diarios unificados y dividimos la
suma por la cantidad de días que hay en el Ciclo de facturación.
El resultado es el Saldo diario promedio.
3. Al finalizar el Ciclo de facturación, multiplicamos tu Saldo
diario promedio por la tasa periódica diaria, y luego
multiplicamos el resultado por la cantidad de días que hay en el
Ciclo de facturación.
4. El resultado es tu Cargo total por interés para el Ciclo de
facturación, el cual autorizas a que se redondee al centavo más
próximo.

Sección 14. Promesa de pago.
Te comprometes a pagarnos todos los montos adeudados
que figuren en tu Cuenta. Esto incluye montos para los
cuales no firmaste un recibo de Compra u otros documentos
para la transacción. Trataremos a las transacciones
realizadas sin presentar tu Tarjeta (como las Compras por
correo, teléfono, Internet o dispositivo móvil) de la misma
manera que si hubieses utilizado la Tarjeta en persona. Si
permites que otra persona utilice tu Tarjeta o tu Cuenta, eres
responsable de todas las transacciones que realice dicha
persona.
Sección 15. Estados de cuenta.
Al final de cada Ciclo de facturación, te enviaremos o
pondremos a tu disposición un Estado de cuenta sobre tu
Cuenta. Tu Estado de cuenta te informará la fecha de
vencimiento de tus pagos. Debes notificarnos a Oportun
credit card, P.O. Box 560698, The Colony, TX 75056 sobre
cualquier cambio en tu dirección. En ciertas circunstancias,
la ley no exige que te enviemos o pongamos a tu disposición
un Estado de cuenta, o nos prohíbe que lo hagamos. En
dichas circunstancias, podemos continuar sumando
intereses y cargos tal como lo permita la ley. Si optas por
recibir tu Estado de cuenta en formato electrónico, no te
enviaremos estados de cuenta en papel por correo.

Para los propósitos de los cálculos anteriores, los Cargos por
interés se suman (reflejan) en el saldo diario de cada Plan de
crédito el último día del Ciclo de facturación. Los cargos se
agregan como parte del saldo diario el día en que se reflejan en
la Cuenta. Las Compras nuevas forman parte del saldo de la
Cuenta en la fecha de la transacción. Debido al redondeo o un
Cargo mínimo por interés, este cálculo puede variar ligeramente
debido al Cargo por interés realmente determinado.
La tasa periódica diaria que se utiliza para determinar tus Cargos
por interés es de 1/365 de tu Tasa de porcentaje anual (APR).

Sección 16. Transacciones disputadas.
Debes inspeccionar cada Estado de cuenta que recibas e
informarnos sobre cualquier error o preguntas que tengas,
tal como se describe en el "Resumen de Derechos de
facturación" de tu Estado de cuenta y en este Acuerdo.

Cobraremos los Cargos por interés y los Cargos a tu Cuenta tal
como se indica en el cuadro de tu Divulgación e información
importantes sobre precios y en tu Estado de cuenta. Si pagaste tu
saldo en su totalidad para la fecha de vencimiento en tu Estado
de cuenta anterior, no cobraremos ningún Cargo por interés
nuevo sobre las Compras nuevas realizadas durante el Ciclo de
facturación actual.

Si acreditamos tu Cuenta con la totalidad o una parte de una
transacción disputada, nos otorgas todos tus derechos sobre
otros en relación con dicha transacción. Además:

4

Podemos aumentar tus Cargos por interés y los Cargos tal
como se describe en la sección "Cambios en tu Acuerdo" de
este Acuerdo.

No puedes realizar pagos con fondos de tu Cuenta o cualquier
otra cuenta de crédito que tengas con nosotros. Debes enviarnos
los pagos por correo como lo explica el Estado de cuenta, excepto
que te indiquemos lo contrario.

Si te cobramos intereses, el cargo no será inferior a $1.00.

Debes enviar por correo todos los elementos de pago (como
cheques) (el/los "Elemento(s)") con palabras restrictivas,
condiciones, limitaciones o instrucciones especiales a: Oportun
credit card, P.O. Box 561240, The Colony, TX 75056. Esto
incluye Elementos marcados como "Pagado en su totalidad" o
palabras similares. También incluye todas las comunicaciones
que acompañen. Si realizas un pago o envías cualquier
comunicación que acompañe a cualquier otra dirección,
podemos rechazarlo y/o devolvértelo. También podemos
aceptarlo y procesarlo sin perder ninguno de nuestros derechos.

Sección 20. Cargos por transacción.
Adelantos de efectivo. Podemos cobrarte un Cargo por
transacción por Adelantos de efectivo por cualquier
Adelanto de efectivo por un monto superior a $10 o el tres
por ciento (3%) del monto de la transacción.
Sección 21. Cargo por incumplimiento y Cargo por pago
rechazado.
(a). Cargo por incumplimiento. Si no recibimos tu pago por
al menos del monto de tu Pago mínimo para la fecha de
vencimiento que figura en tu Estado de cuenta mensual, se
te cobrará un Cargo por incumplimiento. El cargo será de
$25.00 si no incurriste en un Pago por incumplimiento
durante los últimos seis períodos de facturación; de lo
contrario, el Cargo por incumplimiento será de $35.00. No
obstante, este cargo no podrá exceder el monto permitido
por la ley.

Sección 25. Otros servicios de pago.
Podemos habilitar servicios para permitirte que realices pagos en
persona y de manera más rápida, o pagos recurrentes en línea o
por teléfono. Describiremos los términos para utilizar estos
servicios y cualquier Cargo que aplique antes de que los uses. No
es obligatorio el uso de estos servicios de pago.
No somos responsables si tu institución financiera rechaza un
pago realizado mediante nuestros servicios de pago.

(b). Cargo por pago rechazado. Si un cheque u otro pago
entregado como pago en tu Cuenta es rechazado impago por
cualquier motivo, se te cobrará un Cargo por pago
rechazado. El cargo será de $25.00 si no incurriste en un
Pago por pago rechazado durante los últimos seis períodos
de facturación; de lo contrario, el Cargo pago rechazado será
de $35.00. No obstante, este cargo no podrá exceder el
monto permitido por la ley.

Si le solicitas a otra persona que realice un pago por ti, podemos
brindarle a esa persona información limitada sobre tu Cuenta,
necesaria para configurar y procesar el pago. También podemos
negarnos a aceptar ese pago. Si lo aceptamos, tú serás
responsable del pago, aunque una institución financiera lo
rechace.
Sección 26. Proceso de pago.
Podemos aceptar y procesar pagos sin perder ninguno de
nuestros derechos. Aunque acreditamos inmediatamente el pago
de tu préstamo en el saldo de tu Cuenta, podemos retener tu
crédito disponible hasta que confirmemos que el pago se haya
procesado. Podemos retener tu crédito disponible por hasta 7 días
calendario. Podemos volver a enviar y cobrar los pagos
rechazados electrónicamente. Si es necesario, podemos ajustar tu
Cuenta para corregir errores, procesar pagos rechazados y
revertidos, y manejar temas similares.

Sección 22. Cargo anual.
El Cargo anual de tu Cuenta es de hasta $49. El Cargo anual
se facturará a tu Cuenta mientras permanezca abierta.
Sección 23. Pago mínimo.
Debes abonar al menos el Pago mínimo total para la fecha
de vencimiento del pago todos los meses.
Tu Pago mínimo total adeudado será el mayor entre (i) $25,
o (ii) el 5% del total del nuevo saldo de tu Estado de cuenta,
más cargos por incumplimiento más cualquier monto
adeudado, redondeado al dólar próximo más elevado. No
obstante, si tu saldo pendiente total es inferior a $25, tu Pago
mínimo total adeudado será el saldo total.

Cuando nos envías un Articulo como pago, nos autorizas a
realizar una transferencia electrónica de fondos por única vez
desde tu cuenta de depósito. Podemos debitar los fondos de tu
cuenta de depósito el mismo día en que recibimos el pago. Tu
banco no te devolverá el Articulo. Te brindaremos más
información sobre este proceso en tu Estado de cuenta.

Tu Estado de cuenta indicará:
1. el Pago mínimo total adeudado,
2. tu nuevo saldo,
3. la fecha de vencimiento del pago, y
4. una explicación de cuándo debe llegarnos el pago para
que lo consideremos recibido a partir de esa fecha.

Podemos utilizar la información de un Articulo para crear una
imagen electrónica. Podemos recopilar y devolver la imagen
electrónicamente. Esta imagen electrónica también puede
convertirse a un cheque sustituto y puede procesarse de la misma
manera en que procesaríamos un Articulo. No somos
responsables si un Articulo que proporciones tiene características
físicas que, al digitalizarse, no se pueda procesar como tú
deseabas.

Las devoluciones y otros créditos a tu Cuenta reducirán el
saldo de tu Cuenta, pero no cambiarán el monto del Pago
mínimo.
Si tu Cuenta tiene 180 días de mora, forma parte de un
procedimiento bancarrota o se contabiliza como incobrable
de alguna otra manera, el saldo total inmediatamente se
considera vencido y exigible.

Sección 27. Cómo aplicamos tus pagos.
En cada Ciclo de facturación, aplicamos los pagos hasta tu Pago
mínimo a los saldos de tu Cuenta utilizando cualquier método
que escojamos (en cumplimiento con las leyes y
reglamentaciones que correspondan). Los pagos hasta tu Pago
mínimo se aplicarán en cualquier orden a nuestro criterio, y los
pagos que excedan tu Pago mínimo se aplicarán a los saldos con
la mayor APR en primer lugar, y luego a los saldos con tasa más
baja en orden descendente de APR. Esto significa que los saldos

Sección 24. Cómo realizar pagos.
Tu pago debe realizarse en dólares estadounidenses desde
una cuenta de depósito de los EE.UU. en un formato y una
ubicación que aceptemos.

5

con mayor APR se reducen antes que los saldos con menor
APR por cualquier monto de tu pago que exceda el Pago
mínimo adeudado.

correspondiente, acuerdas que nosotros (incluye cualquier
compañía que trabaje en nuestro nombre para ofrecer servicios
para tu Cuenta) de tanto en tanto podemos realizar llamadas y
enviarte mensajes de texto utilizando mensajes de voz
artificial/grabados o a través del uso de un dispositivo de
marcado automatizado a cualquier número de teléfono que nos
brindes en relación con tu Cuenta en cualquier momento, incluso
a un número de teléfono móvil que pueda hacerte incurrir en
cargos. Notifícanos de inmediato sobre cualquier cambio en tu
información de contacto llamando al 833-Oportun.

Sección 28. Saldos a favor.
Podemos rechazar y devolver cualquier pago que cree un
saldo a favor o lo incremente en tu Cuenta. Cualquier saldo
a favor que permitamos no estará disponible hasta que
confirmemos que tu pago se haya procesado. Podemos
reducir el monto de cualquier saldo a favor con nuevos
cargos. Haremos un esfuerzo de buena fe por reembolsar
cualquier saldo a favor que quede en la cuenta durante más
de seis meses; o puedes escribir a la dirección brindada en
tu Estado de cuenta o llamarnos al 833-Oportun para
solicitar un reembolso de cualquier saldo a favor disponible,
y emitiremos un reembolso dentro de los treinta días hábiles.

Sección 31. Informes de crédito.
Podemos reportar información sobre tu Cuenta, incluso sobre ti
y cualquier Usuario autorizado, a las agencias de crédito y a
otros. Los pagos atrasados, impagos u otros incumplimientos en
tu Cuenta pueden reflejarse en tu informe de crédito. La
información que brindemos figurará en tu informe de crédito.

Sección 29. Incumplimiento de la cuenta.
Estarás en estado de incumplimiento si:

Si crees que hemos reportado información inexacta sobre tu
Cuenta a una agencia de crédito u otra agencia de informes sobre
clientes, notifícanos por escrito a Oportun credit card, P.O. Box
560698, The Colony, TX 75056 Al escribirnos, indica la
información específica que crees que es incorrecta y por qué
crees que es incorrecta. Investigaremos el asunto y te
informaremos si estamos de acuerdo contigo o no. Si estamos de
acuerdo, nos comunicaremos con cada agencia de informes sobre
clientes a la que reportemos y solicitaremos una corrección.

1. no realizas ningún pago para el vencimiento;
2. un pago que realizas es rechazado, no se paga o no se
puede procesar;
3. declaras o estás sujeto a un procedimiento de bancarrota
o insolvencia;
4. no puedes o no estás dispuesto a pagar tus obligaciones;
5. te mudas fuera de los EE.UU.;
6. determinamos que nos has hecho declaraciones falsas,
incompletas o engañosas, o intentas de alguna otra manera
cometer fraude; o
7. no cumples con algún término de este Acuerdo o
cualquier otro contrato con nosotros.

Podemos obtener y utilizar información de crédito, ingresos y
demás datos sobre ti de las agencias de crédito y otras tal como
lo permite la ley.
Sección 32. Cierre o suspensión de tu Cuenta.
Puedes comunicarte con nosotros al 833-Oportun para
solicitarnos que cerremos tu Cuenta.

Si estás en incumplimiento, podemos tomar ciertas medidas
con respecto a tu Cuenta. Por ejemplo, según el
incumplimiento, podemos tomar las siguientes medidas, sin
notificártelo, excepto que la ley establezca que debemos
brindarte un aviso:

Podemos cerrar o suspender tu Cuenta en cualquier momento y
por cualquier motivo permitido por la ley, incluso si no estás en
incumplimiento. Por ejemplo, podemos cerrar tu Cuenta si
recibiste tu tarjeta y no la has activado o usado en 60 días.

1. cobrarte Cargos, tal como lo permita el Acuerdo;
2. suspender tu límite de crédito o la capacidad de realizar
otras transacciones en tu Cuenta;
3. cerrar tu Cuenta;
4. reducir tu(s) límite(s) de crédito;
5. exigir que pagues de inmediato el saldo total adeudado en
tu Cuenta;
6. involucrarnos en esfuerzos por cobrar tu Cuenta;
7. continuar cobrándote Cargos por interés y Cargos
mientras tu saldo permanezca pendiente; y/o
8. presentar una demanda en tu contra, o buscar otra medida
que no esté prohibida por la ley. Si presentamos una
demanda, aceptas pagar nuestros costos del tribunal, los
gastos y honorarios de abogados excepto que la ley no nos
permita cobrar dichos montos.

Si por algún motivo, tú o nosotros cerramos o suspendemos tu
Cuenta, debes dejar de usar tu Tarjeta. Si cerramos o
suspendemos permanentemente tu Cuenta, debes devolver o
destruir todas las Tarjetas. Aún así, debes pagarnos todos los
montos adeudados de tu Cuenta, que incluye cualquier monto
que se refleje en tu Cuenta después de su cierre o suspensión.
Sección 33. Cambios en tu Acuerdo.
En cualquier momento, podemos agregar, eliminar o cambiar
cualquier término de este Acuerdo, excepto que la ley nos lo
prohíba. Te enviaremos un aviso sobre cualquier cambio tal
como lo exige la ley. Podemos notificarte los cambios en tu
Estado de cuenta o en un aviso por separado. Nuestro aviso
indicará cuándo y cómo entrarán en vigencia dichos cambios. El
uso de la Tarjeta después de la entrada en vigencia de la fecha
del aviso implica que estás de acuerdo con los cambios. El aviso
describirá los derechos que tienes en relación con los cambios.
Si aumentamos tu APR por algún motivo, o si cambiamos tus
Cargos o demás términos de tu Cuenta, te lo notificaremos tal
como lo exige la ley. Tú no puedes cambiar este Acuerdo excepto
que nosotros accedamos por escrito al cambio.

Sección 30. Comunicaciones.
Acuerdas que nosotros (incluye cualquier compañía que
trabaje en nuestro nombre para ofrecer servicios para tu
Cuenta) podemos contactarte a cualquier número de
teléfono, dirección de correo electrónico o dirección postal
que nos brindes, incluso a dispositivos móviles. Acuerdas
que de tanto en tanto nosotros (incluye cualquier compañía
que trabaje en nuestro nombre para ofrecer servicios para tu
Cuenta) podemos monitorear y grabar llamadas telefónicas
realizadas o recibidas por nosotros o nuestros agentes en
relación con tu Cuenta para asegurar la calidad de nuestro
servicio. Para que brindemos servicios para tu Cuenta o
cobremos cualquier monto que adeudes, y sujeto a la ley

Sección 34. La ley que aplica a tu Acuerdo.
Este Acuerdo y tu Cuenta estarán regidos por la ley federal que
aplique a una institución asegurada de la FDIC ubicada en Utah
y, en la medida en que la ley federal no lo invalide, la ley del
estado de Utah, sin perjuicio de las disposiciones legales que se
elijan. Aceptas que este Acuerdo se celebra entre tú y nosotros,

6

y que nosotros lo recibimos en Utah y te extendemos el
crédito desde Utah, vivas en Utah o no. Nosotros
decidiremos si abrir una cuenta para ti o no según los
criterios establecidos en Utah.

facturación de marzo" tendrá su fecha de cierre en marzo.
También podemos referirnos al Ciclo de facturación como un
"Período de facturación". Si el saldo de tu Cuenta es incobrable,
podemos cambiar a Ciclos de facturación trimestrales para tu
Cuenta.

Sección 35. Divisibilidad.
Si se determina que alguna disposición de este Acuerdo no
es válida o no es ejecutable según alguna ley,
reglamentación o normativa, todas las demás disposiciones
de este Acuerdo permanecerán ejecutables (excepto que se
disponga específicamente en la Disposición de arbitraje).
Este Acuerdo es la expresión final del contrato entre tú y
nosotros.

“Tarjeta” significa cualquier Tarjeta de Crédito de WebBank
vinculada a tu Cuenta. Esto incluye todas las renovaciones y
sustituciones. También significa cualquier otro dispositivo de
acceso para tu Cuenta que te demos y te permita obtener crédito,
como cualquier número de Cuenta.
“Adelanto de efectivo” significa una transacción utilizando tu
Tarjeta para obtener efectivo en instituciones financieras o
cajeros automáticos que acepten la Tarjeta o si te otorgamos
cheques de Adelanto de efectivo. También se trata como
Adelantos de efectivo la compra de cheques de viajero, divisas
internacionales, giros postales, transferencias bancarias o
efectivo similar como transacciones tal como lo determinemos,
que incluyen la compra de boletos de lotería o transacciones
similares de apuesta y realizar un pago utilizando un servicio de
terceros.

Sección 36. Renuncia.
No perderemos ninguno de nuestros derechos si nos
demoramos u optamos por no tomar ninguna medida por
algún motivo. Podemos renunciar a nuestro derecho sin
comunicártelo. Por ejemplo, podemos renunciar a tus
Cargos por interés o Cargos sin notificártelo y sin perder
nuestro derecho a cobrarlos en el futuro.
Sección 37. Asignación.
Este Acuerdo será vinculante y beneficiará a cualquiera de
ustedes, y a nuestros sucesores y cesionarios. No puedes
vender, asignar ni transferir tu Cuenta o este Acuerdo a
nadie sin nuestra autorización por escrito. Nosotros
podemos vender, asignar o transferir tu Cuenta y este
Acuerdo, incluso las cuentas a cobrar relacionadas y
cualquiera de los derechos y beneficios de este Acuerdo sin
tu autorización y sin previo aviso. Cualquier cesionario o
cesionarios tomarán nuestro lugar bajo este Acuerdo. Tú
deberás pagarles y cumplir con todas tus obligaciones con
ellos y no con nosotros. Si nos pagas a nosotros después de
haberte notificado que hemos transferido tu Cuenta, las
cuentas a cobrar en virtud del presente o este Acuerdo,
podemos devolverte el pago, reenviar el pago al cesionario,
o administrarlo de cualquier otra manera razonable.

“Cargos” significan los cargos impuestos en tu Cuenta que no
se basen sobre las Tasas de porcentaje anual.
“Cargos por interés” significa cualquier cargo en tu Cuenta que
se base sobre la aplicación de una Tasa de porcentaje anual.
“Articulo” significa un cheque, giro bancario, orden de pago u
otro instrumento negociable que utilices para pagar tu Cuenta.
Esto incluye cualquier imagen de estos instrumentos.
“Pago mínimo” es el monto que debe pagarse a la fecha de
vencimiento del pago indicada en tu Estado de cuenta.
“Compra” significa una transacción utilizando tu Tarjeta para
adquirir o recibir bienes o servicios de alguien que acepta la
Tarjeta.
“Estado de cuenta” significa un documento que exhibe
información importante sobre la Cuenta, que incluye todas las
transacciones facturadas a tu Cuenta durante un Ciclo de
facturación e información sobre qué debes pagar. También
podemos referirnos a tu Estado de cuenta como "Estado de
cuenta periódico" o "Resumen de facturación."

También podemos involucrar a agentes, representantes
autorizados y demás proveedores de servicios, los cuales
pueden actuar por nosotros bajo este Acuerdo y valerse de
los derechos otorgados a nosotros bajo este Acuerdo.
Sección 38. Traducciones al español.
Brindamos traducciones al español, certificadas por un
traductor externo, como cortesía para nuestros clientes
hispanohablantes. Al proporcionarte un documento en
inglés con el mismo contenido, las disposiciones en inglés
son siempre las disposiciones legalmente vinculantes. Si la
traducción al español es distinta a las disposiciones en
inglés, la versión en inglés es la que gobierna.

Sección 40. Divulgación sobre Ley de Préstamos para
Personal Militar (Military Lending Act).
La ley federal de Préstamos para Personal Militar (MLA por su
sigla en inglés) brinda importantes protecciones a ciertos
miembros de las fuerzas armadas y sus dependientes
("Codeudores cubiertos") en relación con la extensión de créditos
al consumidor. Las siguientes disposiciones de esta sección 40
solo aplican a los Codeudores cubiertos.

Sección 39. Glosario.
“Cuenta” significa la cuenta de tu Tarjeta de Crédito
Oportun Visa con WebBank.

La ley federal brinda importantes protecciones a los miembros
de las fuerzas armadas y sus dependientes en relación con la
extensión de créditos al consumidor. En general, el costo del
crédito al consumidor para un miembro de las fuerzas armadas y
sus dependientes no puede exceder una tasa de porcentaje anual
del 36 por ciento. Esta tasa debe incluir, según aplique a la cuenta
o transacción del crédito: Los costos asociados con las primas del
seguro del crédito; los cargos por productos secundarios
vendidos en conexión con la transacción del crédito; cualquier
cargo de solicitud que se cobre (que no sean ciertos cargos de
solicitud por cuentas o transacciones de crédito especificadas); y
cualquier cargo de participación cobrado (que no sean ciertos
cargos de participación por una cuenta de tarjeta de crédito).

“Cargo anual” significa el cargo cobrado anualmente por el
uso de tu Cuenta.
“Tasa de porcentaje anual” o “APR” significa tu costo de
crédito expresado como una tasa anual.
“Ciclo de facturación” significa el período reflejado en un
Estado de cuenta. Este período puede variar en longitud pero
es de aproximadamente 30 días. Tendrás un Ciclo de
facturación aunque no se requiera un Estado de cuenta. A
menudo especificaremos un Ciclo de facturación por el mes
en que ocurre la fecha de cierre. Por ejemplo, un "Ciclo de

7

Para escuchar divulgaciones importantes e información de
pago sobre la cuenta de un Codeudor cubierto, puedes
llamar al 1-855-613-0070.

nombre.
c. La parte que inicia el arbitraje debe hacerlo ante la American
Arbitration Association (la “AAA”) o Judicial Alternatives and
Mediation Services (“JAMS”). El arbitraje se llevará a cabo
según las reglamentaciones y las políticas del administrador
seleccionado, la ubicación del arbitraje será determinado por
dichas reglamentaciones y políticas, y en cumplimiento con
ellas, excepto en la medida en que las reglamentaciones
interfieran con esta Disposición de arbitraje o alguna ley que
aplique. Si tienes preguntas sobre la AAA o deseas obtener una
copia de las reglamentaciones de arbitraje de la AAA, puedes
llamar al 1-800-778-7879 o visitar el sitio de Internet de la AAA
en: www.adr.org. Si tienes preguntas sobre JAMS o deseas
obtener una copia de las reglamentaciones de arbitraje de JAMS,
puedes llamar al 1-800-352-5267 o visitar su sitio de Internet en:
www.jamsadr.com. En caso de conflicto entre las
reglamentaciones y políticas del administrador y esta
Disposición de arbitraje, esta Disposición de arbitraje
prevalecerá, sujeta a la ley correspondiente, excepto que todas
las partes del arbitraje acuerden aplicar las reglamentaciones y
políticas del administrador. En caso que ninguno de los
administradores mencionados anteriormente se encuentre
disponible, la parte que solicita el arbitraje puede optar por un
árbitro alternativo o un proveedor de arbitraje.

La Disposición de arbitraje detallada en la sección 41 de este
Acuerdo no aplica si eres un Codeudor cubierto.
Sección 41. Arbitraje.
RESOLUCIÓN DE DISPUTAS: ESTA DISPOSICIÓN DE
ARBITRAJE LIMITA TUS DERECHOS EN CASO DE
UNA DISPUTA ENTRE TÚ Y NOSOTROS Y OTROS,
EXCEPTO QUE SEAS UN CODEUDOR CUBIERTO
POR LA LEY MLA. TIENES DERECHO A RECHAZAR
ESTA DISPOSICIÓN TAL COMO SE INDICA EN EL
PÁRRAFO (b) MÁS ADELANTE.
a. Tanto tú como nosotros podemos, a tu criterio o el
nuestro, exigir que el único y exclusivo foro y recurso de
resolución de una Reclamación sea el arbitraje final y
vinculante en cumplimiento con esta sección (la
"Disposición de arbitraje"), excepto que te excluyas como
se indica en la sección (b) más adelante. Oportun (que
incluye a sus afiliadas y concesionarias), o cualquier titular
subsecuente de este Acuerdo o cualquier interés en tu
Cuenta o cualquier comprador, titular o cesionario
subsecuente de cualquier cuenta a cobrar que surja bajo tu
Cuenta (en conjunto, el "titular subsecuente) también
pueden optar por el arbitraje de cualquier Reclamación tal
como lo dispone esta Disposición de arbitraje. Como se
utiliza en esta Disposición de arbitraje, "Reclamación"
incluye cualquier reclamación, disputa o controversia
pasada, presente o futura que te involucre (o a las personas
que reclamen a través de ti o estén relacionadas contigo), por
un lado, y nosotros y/u Oportun y/o cualquier titular
subsecuente (o personas que reclamen a través de nosotros
o estén relacionadas con nosotros y/u Oportun y/o los
titulares subsecuentes), por el otro lado, en relación con tu
solicitud y la emisión de esta Cuenta, este Acuerdo, tu
Cuenta o la relación entre tú y nosotros, o que surjan de ello,
que incluye (excepto en la medida en que se disponga lo
contrario en la última oración de la sección (f) más adelante)
la validez o ejecutabilidad de esta Disposición de arbitraje,
cualquier parte o la totalidad del Acuerdo. Las
Reclamaciones se encuentran sujetas a arbitraje sin importar
si surgen por contrato; agravios (internacionales o no); una
constitución, estatuto, derecho consuetudinario o principios
de equidad; u otro tipo. Las Reclamaciones incluyen asuntos
que surjan como reclamaciones iniciales, contrademandas,
reclamaciones de copartes, reclamaciones de terceros u otra.
El alcance de esta Disposición de arbitraje es la
interpretación más amplia posible que sea ejecutable.

d. Si nosotros (u Oportun o cualquier titular subsecuente)
optamos por el arbitraje, nosotros (u Oportun o el titular
subsecuente, según sea el caso) pagaremos los costos de
presentación y los gastos administrativos del administrador (que
no sean los cargos de audiencia). Si tú optas por el arbitraje, los
costos de presentación y los gastos administrativos (que no sean
los cargos de audiencia) se pagarán según las reglas del
administrador escogido, o en cumplimiento con la ley que
corresponda si dispone lo contrario a las reglas del administrador.
Nosotros (u Oportun o el titular subsecuente, según sea el caso)
pagaremos los cargos de audiencia del administrador para un día
completo de las audiencias de arbitraje. La parte que solicita la
audiencia pagará los cargos por audiencias que excedan un día,
excepto que las reglas del administrador o la ley correspondiente
exija lo contrario, o que tú solicites que nosotros (u Oportun o el
titular subsecuente) los paguemos y nosotros acordemos (u
Oportun o el titular subsecuente acuerde) hacerlo. Cada parte
abonará el gasto de los honorarios de su propio abogado, excepto
que la ley correspondiente disponga lo contrario. Si un decreto te
concede el derecho a recuperar cualquiera de estos cargos, estos
derechos estatutarios aplicarán al arbitraje, sin perjuicio de
ninguna disposición del presente que indique lo contrario.
e. Dentro de los 30 días de un fallo final por parte del árbitro,
cualquiera de las partes puede apelar el fallo para que un panel
de tres árbitros elegidos lo reconsideren según las
reglamentaciones del administrador del arbitraje. En caso de
dicha apelación, cualquiera de las partes opositoras puede
contraapelar dentro de los 30 días después del aviso de apelación.
El panel reconsiderará de novo todos los aspectos del fallo inicial
que se están apelado. Los costos y la conducta de cualquier
apelación estarán regidos por esta Disposición de arbitraje y las
reglamentaciones del administrador, de la misma manera que el
procedimiento de arbitraje inicial. Cualquier fallo por parte del
árbitro individual que no esté sujeto a apelación y cualquier fallo
del panel sobre la apelación será final y vinculante, excepto
cualquier apelación bajo la Ley de arbitraje federal (FAA por su
sigla en inglés), y podrá registrarse como fallo dictado ante
cualquier tribunal de jurisdicción competente.

b. Puedes excluirte de esta Disposición de arbitraje a todos
los fines y efectos, enviando un aviso de exclusión de
arbitraje a Oportun credit card, P.O. Box 560698, The
Colony, TX 75056, que se recibe en la dirección
especificada dentro de los 30 días de la fecha en que
solicitaste tu Cuenta. El aviso de exclusión debe establecer
claramente que rechazas el arbitraje; debe identificar la
Cuenta a la cual se aplica por fecha; debes brindar tu
nombre, dirección y número del Seguro Social; y debe estar
firmado por ti. Puedes enviar un aviso de exclusión de
cualquier manera que consideres apropiada mientras se
reciba en la dirección especificada dentro del tiempo
especificado. Esta es la única manera de excluirse de esta
Disposición de arbitraje. Si un tercero envía el aviso de
exclusión en tu nombre, dicho tercero debe incluir evidencia
de su autoridad para presentar el aviso de exclusión en tu

f. Nosotros (y Oportun y cualquier titular subsecuente)
acordamos no invocar nuestro derecho a arbitrar una

8

Reclamación individual que puedas presentar ante un
tribunal de reclamaciones de menor cuantía o un tribunal
equivalente, si lo hubiese, siempre y cuando la Reclamación
se tramite solamente en ese tribunal. Nosotros (u Oportun o
cualquier titular subsecuente) no iniciaremos un
procedimiento de arbitraje para cobrar una deuda de ti,
excepto que inicies una Reclamación en nuestra contra (o de
Oportun o de cualquier titular subsecuente). Puedes solicitar
arbitraje en un procedimiento para cobrar una deuda.
Nosotros (u Oportun o cualquier titular subsecuente)
podemos solicitar arbitraje en un procedimiento para cobrar
una deuda si inicias una Reclamación en nuestra contra (o
de Oportun o de cualquier titular subsecuente). NINGÚN
ARBITRAJE CONTINUARÁ DE MANERA GRUPAL,
DE REPRESENTACIÓN NI COLECTIVA (INCLUYE
COMO PROCURADOR GENERAL PRIVADO EN
NOMBRE
DE
OTROS),
INCLUSO
SI
LA
RECLAMACIÓN O RECLAMACIONES QUE ESTÁN
SUJETAS AL ARBITRAJE HAN SIDO ALEGADAS
ANTERIORMENTE (O PUDIERON HABER SIDO
ALEGADAS) EN UN TRIBUNAL COMO DEMANDA
GRUPAL, DE REPRESENTACIÓN O COLECTIVA EN
UN TRIBUNAL. Excepto que todas las partes del arbitraje
lo acuerden por escrito, ninguna de las partes del arbitraje
puede unirse, consolidar o presentar de ninguna otra manera
reclamaciones por o en nombre de dos individuos o más, o
entidades corporativas sin relación en el mismo arbitraje,
excepto que esas personas sean partes de una misma
transacción. Excepto que todas las partes del arbitraje lo
acuerden por escrito, un fallo de arbitraje determinará los
derechos y obligaciones únicamente de las partes
mencionadas, y solo en relación con las reclamaciones en
arbitraje, y no (a) determinará los derechos, obligaciones ni
intereses de nadie que no sea la parte mencionada, o
resolverá una Reclamación de nadie que no sea la parte
mencionada; ni (b) dictaminará un fallo que beneficie o
perjudique a nadie que no sea la parte mencionada. Ningún
administrador ni árbitro tendrán el poder ni la autoridad de
exentar, modificar ni omitir el cumplimiento de esta sección
(f), y cualquier intento por hacerlo, sea por reglamentación,
política, decisión de arbitraje u otra, no será válido ni
ejecutable. Cualquier impugnación de la validez de esta
sección (f) será determinada exclusivamente por un tribunal,
y no por el administrador ni un árbitro.

que no sea la sección (f) no es válida o no es ejecutable, las partes
restantes de esta Disposición de arbitraje continuarán siendo
vigentes y valederas. Si se presenta un arbitraje de manera
grupal, de representación o colectiva, y las limitaciones de dichos
procedimientos en la sección (f) se determinan finalmente en
cumplimiento con la última oración de la sección (f) que no son
ejecutables, no tendrá lugar arbitraje alguno. En ninguna
circunstancia se considerará que dicha invalidación autoriza a un
árbitro a determinar Reclamaciones o a dictaminar fallos más allá
de los autorizados en esta Disposición de arbitraje.
LAS PARTES RECONOCEN QUE TIENEN DERECHO A
LITIGAR UNA RECLAMACIÓN A TRAVÉS DE UN
TRIBUNAL ANTE UN JUZGADO O JURADO, PERO NO
TENDRÁN DICHO DERECHO SI ALGUNA DE LAS
PARTES OPTA POR EL ARBITRAJE EN CUMPLIMIENTO
CON ESTA DISPOSICIÓN DE ARBITRAJE. SUJETO A LA
SECCIÓN (b), LAS PARTES POR MEDIO DEL PRESENTE
RENUNCIAN DELIBERADA Y VOLUNTARIAMENTE A
SUS DERECHOS A LITIGAR DICHAS RECLAMACIONES
EN UN TRIBUNAL ANTE UN JUZGADO O JURADO AL
OPTAR ALGUNA DE LAS PARTES POR EL ARBITRAJE.
i. Los procedimientos del arbitraje se llevarán a cabo en inglés;
sin embargo, puedes solicitar que un traductor acordado por ti y
por nosotros traduzca la audiencia de arbitraje al español u otro
idioma. Si tú y nosotros no logramos acordar un traductor, el
árbitro designará uno.
Tus Derechos de facturación.
Este aviso te informa sobre tus derechos y responsabilidades bajo
la Ley de equidad de facturación de crédito.
Tus Derechos de facturación
Guarda este aviso para utilizarlo en el futuro: Este aviso te
informa sobre tus derechos y responsabilidades bajo la Ley de
facturación justa de crédito.
Qué debes hacer si encontraste un error en tu estado de
cuenta: Si crees que hay un error en tu estado de cuenta,
escríbenos lo antes posible a: Oportun credit card, P.O. Box
560698, The Colony, TX 75056.
En la carta, brinda la siguiente información:
•
Información de la cuenta: Tu nombre y el número de
cuenta.
•
Monto en dólares: El monto en dólares del supuesto
error.
•
Descripción del problema: Si crees que hay un error en
tu factura, describe qué crees que es erróneo y por qué
crees que es una equivocación.

g. Esta Disposición de arbitraje acata una transacción que
involucra el comercio interestatal, y la FAA es la que la rige
y ejecuta. El árbitro aplicará la ley sustancial en
cumplimiento con la FAA y las prescripciones que apliquen.
El árbitro puede fijar daños o conceder otros tipos de
indemnizaciones permitidas por la ley sustancial que
aplique, sujetos a las limitaciones establecidas en esta
Disposición de arbitraje. El árbitro no deberá ceñirse a las
reglamentaciones judiciales de procedimiento y evidencia
que aplicarían en un tribunal. El árbitro debe tomar las
medidas necesarias para proteger razonablemente la
información confidencial.

Debes contactarnos:
•
Dentro de los 60 días posteriores a que el error apareció
en tu estado de cuenta.
•
Al menos 3 días hábiles antes de un pago automático
programado, si deseas detener el pago por el monto que
crees que es incorrecto.

h. Esta Disposición de arbitraje sobrevivirá (i) la
suspensión, finalización, revocación, cierre o enmiendas de
este Acuerdo y la relación de las partes y/u Oportun o un
titular subsecuente; (ii) la quiebra o insolvencia de
cualquiera de las partes o de otra persona; y (iii) cualquier
transferencia de la Cuenta o de este Acuerdo, o cualquier
interés en él, o cuentas a cobrar que surjan de la Cuenta o
este Acuerdo, a cualquier otra persona o entidad. Si se
determina que alguna parte de esta Disposición de arbitraje

Debes notificarnos sobre cualquier posible error por escrito.
Puedes notificarnos a Oportun credit card, P.O. Box 560698, The
Colony, TX 75056, pero si lo haces, no estamos obligados a
investigar ningún supuesto error y es posible que debas pagar el
monto en cuestión.
Qué sucederá después de que recibamos tu carta.
Cuando recibimos tu carta, debemos hacer dos cosas:

9

1. Dentro de los 30 días de haber recibido tu carta, debemos
informarte que la recibimos. También te informaremos si ya
hemos corregido el error.
2. Dentro de los 90 días de haber recibido tu carta, te
enviaremos un aviso por escrito que explique si hemos
corregido el error (figurará en tu próximo estado de cuenta)
o los motivos por los cuales creemos que la factura es
correcta.

2. Debiste haber usado la tarjeta de crédito para la compra. Las
compras realizadas con adelantos de efectivo de un cajero
automático o con un cheque que acceda a la cuenta de tu tarjeta
de crédito no califican; y
3. No debiste haber pagado la compra en su totalidad.
Si todos los criterios anteriores se cumplen y no estás satisfecho
con la compra, comunícate con nosotros por escrito a Oportun
credit card, P.O. Box 560698, The Colony, TX, 75056.

Mientras investigamos si ha habido un error o no, sucederá
lo siguiente:
•
•
•

•

No podemos intentar cobrar el monto en cuestión ni
reportarte como moroso por ese monto.
El cargo en cuestión puede permanecer en tu estado
de cuenta y podemos continuar cobrándote intereses
sobre ese monto.
Aunque no tengas que pagar el monto en cuestión
hasta que te enviemos un aviso con el resultado de
la investigación, eres responsable del resto de tu
saldo.
Podemos aplicar cualquier monto impago a tu límite
de crédito.

Una vez concluida la investigación, sucederá una de dos
cosas:
•
•

Mientas investigamos, aplican las mismas reglas al monto
disputado, como se menciona anteriormente. Una vez concluida
la investigación, te informaremos nuestra decisión. En ese
momento, si creemos que debes un monto y no lo pagas,
podemos reportarte como moroso.

c

Si cometimos un error: No tendrás que pagar el monto
en cuestión ni los intereses o cargos relacionados con
ese monto.
Si no creemos que haya un error: Tendrás que pagar
el monto en cuestión, junto con los intereses y cargos
que apliquen. Te enviaremos un resumen del monto
que adeudas y la fecha de vencimiento. Luego
podremos reportarte como moroso si no pagas el
monto que nosotros consideramos que debes.

Si recibes nuestra explicación pero sigues creyendo que tu
factura es errónea, debes escribirnos dentro de los 10 días
para informarnos que te rehúsas a pagar. Si lo haces, no
podemos reportarte como moroso sin también informar que
estás cuestionando tu factura. Debemos informarte el
nombre de cualquier persona a quien te hayamos reportado
como moroso, y debemos informar a esas organizaciones
cuando se resuelva el asunto entre nosotros.
Si no acatamos todas las reglas anteriores, no tienes que
pagar los primeros $50 del monto en cuestión, aunque tu
factura no tenga errores.
Tus derechos si no estás satisfecho con las compras de tu
tarjeta de crédito.
Si no estás satisfecho con los bienes o servicios que
compraste con tu tarjeta de crédito, y has intentado de buena
fe corregir el problema con el comercio, puedes tener
derecho a no pagar el monto adeudado restante de dicha
compra.
Para hacer uso de este derecho, todas las siguientes
afirmaciones deben ser ciertas:
1. La compra debe haberse realizado en el estado donde
resides o dentro de las 100 millas de tu dirección postal
actual, y el precio de la compra debe haber sido superior a
$50. (Nota: Ninguna de estas afirmaciones aplica si tu
compra se basó sobre una publicidad que te enviamos por
correo, o si somos propietarios de la compañía que te vendió
los bienes o servicios);

10

